<html>
<title> - THE PROGRESS OF THE DHS CHIEF INTELLIGENCE OFFICER</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                        THE PROGRESS OF THE DHS
                       CHIEF INTELLIGENCE OFFICER

=======================================================================

                                HEARING

                               before the

                     SUBCOMMITTEE ON INTELLIGENCE,
           INFORMATION SHARING, AND TERRORISM RISK ASSESSMENT

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 24, 2006

                               __________

                           Serial No. 109-80

                               __________

       Printed for the use of the Committee on Homeland Security
                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html

                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
37-217                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�0900012007


                     COMMITTEE ON HOMELAND SECURITY



                   Peter T. King, New York, Chairman

Don Young, Alaska                    Bennie G. Thompson, Mississippi
Lamar S. Smith, Texas                Loretta Sanchez, California
Curt Weldon, Pennsylvania            Edward J. Markey, Massachusetts
Christopher Shays, Connecticut       Norman D. Dicks, Washington
John Linder, Georgia                 Jane Harman, California
Mark E. Souder, Indiana              Peter A. DeFazio, Oregon
Tom Davis, Virginia                  Nita M. Lowey, New York
Daniel E. Lungren, California        Eleanor Holmes Norton, District of 
Jim Gibbons, Nevada                  Columbia
Rob Simmons, Connecticut             Zoe Lofgren, California
Mike Rogers, Alabama                 Sheila Jackson-Lee, Texas
Stevan Pearce, New Mexico            Bill Pascrell, Jr., New Jersey
Katherine Harris, Florida            Donna M. Christensen, U.S. Virgin 
Bobby Jindal, Louisiana              Islands
Dave G. Reichert, Washington         Bob Etheridge, North Carolina
Michael McCaul, Texas                James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida

                                 ______

 SUBCOMMITTEE ON INTELLIGENCE, INFORMATION SHARING, AND TERRORISM RISK 
                               ASSESSMENT



                   Rob Simmons, Connecticut, Chairman

Curt Weldon, Pennsylvania            Zoe Lofgren, California
Mark E. Souder, Indiana              Loretta Sanchez, California
Daniel E. Lungren, California        Jane Harman, California
Jim Gibbons, Nevada                  Nita M. Lowey, New York
Stevan Pearce, New Mexico            Sheila Jackson-Lee, Texas
Bobby Jindal, Louisiana              James R. Langevin, Rhode Island
Charlie Dent, Pennsylvania           Kendrick B. Meek, Florida
Ginny Brown-Waite, Florida           Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex          (Ex Officio)
Officio)

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Rob Simmons, a Representative in Congress From the 
  State of Connecticut, and Chairman, Subcommittee on 
  Intelligence, Information Sharing, and Terrorism Risk 
  Assessment.....................................................     1
The Honorable Zoe Lofgren, a Representative in Congress From the 
  State of California, and Ranking Member, Subcommittee on 
  Intelligence, Information Sharing, and Terrorism Risk 
  Assessment:
  Prepared Statement.............................................     2
  Oral Statement.................................................     2
The Honorable Jim Gibbons, a Representative in Congress From the 
  State of Nevada................................................    14
The Honorable James R. Langevin, a Representative in Congress 
  From the State of Rhode Island.................................    16

                                Witness

Mr. Charles E. Allen, Chief Intelligence Officer, Officer of 
  Intelligence and Analysis, Department of Homeland Security:
  Oral Statement.................................................     3
  Prepared Statement.............................................     6


                        THE PROGRESS OF THE DHS
                       CHIEF INTELLIGENCE OFFICER

                              ----------                              


                        Wednesday, May 24, 2006

                          House of Representatives,
                    Committee on Homeland Security,
                  Subcommittee on Intelligence, Information
                    Sharing, and Terrorism Risk Assessment,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 4:39 p.m., in 
Room 311, Cannon House Office Building, Hon. Rob Simmons 
[chairman of the subcommittee] presiding.
    Present: Representatives Simmons, Gibbons, Lofgren, and 
Langevin.
    Mr. Simmons. [Presiding.] The Homeland Security 
Subcommittee on Intelligence Information Sharing and Terrorism 
Risk Assessment will come to order.
    Today, the subcommittee meets to hear testimony on how Mr. 
Charlie Allen, the DHS chief intelligence officer, has 
progressed in his efforts to better integrate the DHS 
intelligence enterprise and strengthen its ability to share 
intelligence and analysis with state, local, tribal and private 
sector partners.
    In October 19, 2005, we held a hearing with Assistant 
Secretary Allen in the wake of a very public dispute over the 
New York and Baltimore tele-threat streams. Since that time, I 
have been assured by Assistant Secretary Allen and officials 
from New York and Baltimore that the issues related to that 
dispute have been largely resolved.
    Coordination has improved, and DHS has begun deploying 
analysts to state and local fusion centers. And I can say 
yesterday that 2 days ago, I went to the Maryland fusion 
center, and we saw firsthand that those improvements have been 
made.
    While DHS assistance to states, localities and tribes can 
and will be improved, the Office of Intelligence and Analysis 
is taking important steps to integrate with and support state, 
local and tribal sector information sharing initiatives.
    In October, we also discussed the secretary's plans for 
integrating the department's intelligence offices, and he 
indicated that better integration of operational intelligence 
components would be a top priority.
    Mr. Allen, I would be interested in hearing from you today 
on how this effort has progressed and what the continued 
challenges are. Seven months ago, you had a lot on your plate. 
Today's hearing is designed to be an update and progress report 
on how things are going.
    I would ask that the remainder of my opening statement be 
inserted into the record as if read.
    Mr. Simmons. And I would like to make a brief comment based 
on a reading of Chapter 13 in the 9/11 Commission report, Page 
399: ``As presently configured, the national security 
institutions of the United States government are still the 
institutions constructed to win the Cold War. The United States 
confronts a very different world today. Instead of facing a few 
very dangerous adversaries, the United States confronts a 
number of less visible challenges that surpass the boundaries 
of traditional nation states and call for quick, imaginative 
and agile responses.''
    Mr. Allen, you were instrumental in the fight to win the 
Cold War. Now, you have been placed in a position of 
responsibility at the beginning of another kind of war that 
takes new organizations, one of which you now serve in, new 
ideas, new responses, new approaches.
    We wish you all the best in this, but we also wish to be 
kept up to date on how this process is developing and what 
progress there is to report. It is an important and it is an 
exciting challenge, because the safety and security of the 
American people in this democracy are at stake.
    So I look forward to hearing your testimony.
    And at this point, I will yield to the distinguished 
ranking member of the committee, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman. And my apologies for 
being late. I was at another markup.
    I look forward to continuing to work with you, Mr. Allen. I 
appreciate your courtesy in keeping us apprised of your 
progress. And as we all know, the job you have is enormously 
important for the security of our country, and I thank you for 
your willingness to take it on.
    I would just also note that we were able to have a briefing 
in a classified setting, and I also appreciated. And one 
concern that I have talked about publicly is the issue of the 
NSA Warrantless Wiretap Program that the president has 
discussed. And certainly, the Department of Homeland Security 
is not a collector of information but a recipient of 
information and then also a distributor of information.
    Rather than repeating all of the questions, I would simply 
say, are there any of the questions they asked you in a 
classified setting that you are able to answer here in this 
public setting? And if so, I would welcome those answers. If 
not, I would respect what you are not able to answer.
    And with that, I would yield back the balance of my time. 
And thank you, Mr. Chairman.

        Prepared Opening Statement of the Honorable Zoe Lofgren

    I am also very happy that we are meeting with you again, Mr. Allen, 
to get an update on your progress as the Chief Intelligence Officer. I 
am certain that the longer you serve in your position, the clearer that 
both your challenges and resulting mission focus are becoming.
    This is precisely the type of oversight hearing that this 
Subcommittee should be having on a regular basis on the Office of 
Intelligence and Analysis (I&A) to ensure that we are up-to-date on 
your needs, priorities, and progress, and I look forward to regular 
briefings and hearings with you in the future.
    I might add, Mr. Allen, that your May 10th letter to me addressing 
your progress was very helpful, and I would encourage you to continue 
such communication with us.
    While I am pleased to learn that I&A is making progress on many 
fronts, I do have several concerns--including one that has been a major 
subject of discussion in recent months.
    As you know, Mr. Allen, I have been very troubled by reports about 
the NSA's domestic surveillance program and its implications for 
privacy and civil liberties.
    I am particularly concerned about the NSA domestic surveillance 
program's implications for the Department and your office.
    Regardless of whether or not I&A has received intelligence 
information from the NSA's domestic surveillance program, I believe 
that your office--if it cannot already--should be able to track the 
origin of intelligence information it receives, segregate out 
information that it learns has been obtained illegally, and report such 
instances to the relevant Congressional committees.
    The Department of Homeland Security must have the public trust. If 
your office receives ``fruit of the poisoned tree''--intelligence 
information that has been obtained illegally--that trust understandably 
will be shaken. Over time, if we don't level with the American people, 
we are bound to lose their support in the war on terror.
    I don't think you or anyone else wants to happen, Mr. Allen, and I 
hope you will share your thoughts on how we can ensure that DHS does 
not become complicit in activity that trades the liberties and civil 
rights that make our nation great for a promise of security that--
without those liberties and rights--leaves everyone insecure.
    I also hope we will be able to revisit with you your progress on 
developing your IT network architecture.
    Your staff was kind enough to generate for us a general outline of 
how you want that architecture to look and a sense of what things might 
cost.
    I hope you'll be able to address your current priorities, where 
this funding should be coming from, and the consequences of your not 
getting the resources you need to build a seamless system connecting 
you, the Department's intelligence components, and your intelligence 
consumers.
    Finally, Mr. Allen, I remain very interested in the Department's 
efforts to secure the nation's critical infrastructure.
    I appreciated Dr. Connell's (CON-L) testimony on HITRAC (HI-TRACK) 
when we last met in February, and I hope we'll have a chance to discuss 
your progress there as well.

    Welcome, again, Mr. Allen. I look forward to our discussions today.

    Mr. Simmons. The gentlelady, having yielded back, and the 
chairman of the committee and the ranking member of the full 
committee not being present to make any statements, I will now 
recognize Mr. Allen.
    Please proceed.

  STATEMENT OF CHARLES E. ALLEN, CHIEF INTELLIGENCE OFFICER, 
    OFFICE OF INTELLIGENCE AND ANALYSIS, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Allen. Thank you, Chairman Simmons, Ranking Member 
Lofgren, for giving me the opportunity to report on my progress 
during my first 7 months as the chief intelligence officer of 
the Department of Homeland Security.
    I have a brief statement that summarizes my longer 
statement, and I ask that to be submitted for the record.
    The mandate of the chief intelligence officer is to lead, 
to integrate and manage the department's intelligence program. 
Thanks to the hard work of our employees in the Office of 
Intelligence Analysis and the department's intelligence 
components, I believe we have made solid progress towards 
transforming DHS intelligence, that we are finally beginning to 
leverage unique capabilities and officers of the DHS 
intelligence enterprise.
    The future is promising for DHS intelligence, and with the 
continued support of Secretary Chertoff and the Congress, we 
will continue to make significant progress in the next 7 
months.
    Last October, I discussed with you five equally important 
priorities for Homeland Security intelligence. Today, I will 
briefly review those and then conclude, speak to some of the 
challenges that I will have in the next 7 months.
    First, by all accounts, under the leadership of Dr. Mary 
Connell, the deputy assistant secretary for intelligence who 
sits behind me, we have improved the quality of intelligence 
analysis across the department.
    Key customers, including the secretary and the deputy 
secretary, have praised her products, and we have produced 
analytic products for the ``National Terrorism Bulletin'' and 
the ``President's Daily Brief.''
    We have increased our overall production, applied analytic 
best practices to distinguish what is known from what is 
surmised, and to ensure the fair consideration of competing 
hypotheses.
    We are aggressively expanding training opportunities for 
our employees and developing department-wide standards for 
production and dissemination of homeland intelligence.
    Substantively, we have broadened our mission to ensure that 
we are addressing the full scope of homeland security. This 
includes, not only assessing immediate threats, but also 
focusing on such issues such as potential threats to U.S. 
critical infrastructures, security of our borders, use of 
nonconventional weaponry by terrorists, and the phenomenon of 
radicalization of American society.
    Second, to promote the integration of DHS intelligence, I 
have established a Homeland Security Intelligence Council. This 
council comprising the leadership of all DHS intelligence 
components is a decision making body which addresses cross-
cutting issues such as recruitment, training, analytic 
standards, budgetary and programmatic issues. We engage on 
issues that need a management decision and look to develop 
enterprise-wise solution in tackling difficult intelligence 
problems.
    As part of this integration, I have approved the first ever 
DHS intelligence enterprise strategic plan. This plan sets in 
place our strategic vision with clear-cut objectives to address 
requirements, collection dissemination and information sharing, 
analysis and warning and to create the overall DHS intelligence 
culture that is supported by solid business practices.
    We have conducted the first-ever review of component 
intelligence programs, a process which not only evaluated 
component intelligence efforts, but also permitted me to engage 
in direct dialogue with the heads of the operating components 
of DHS on ways to strengthen their intelligence programs.
    In addition, I have initiated a comprehensive intelligence 
campaign plan in a department-wide strategy for intelligence 
surveillance and reconnaissance to integrate component and 
national resources to focus on border security, as well as to 
support disaster relief.
    DHS and the intelligence community must come together to 
support this critical initiative.
    Finally, we have developed a key enabler, an enterprise 
information architecture that will accelerate DHS' intelligence 
integration, ensuring we have the information management 
systems that provide connectivity to the intelligence elements 
of the operating components, as well as permitting robust 
sharing of information with state and local governments and the 
private sector.
    To strengthen my office's support to state, local and 
tribal authorities in the private sector, my principal deputy 
assistant secretary, Mr. Jack Tomarchio, who is not here today 
but elsewhere, has traveled extensively to listen to and learn 
from these important partners and to improve our understanding 
of their need for intelligence and information sharing.
    My office also recently prepared a plan, now under review 
by Secretary Chertoff, to support and engage with state and 
local fusion centers around the country. We have deployed DHS 
intelligence officers to New York City, Los Angeles, Maryland 
and Louisiana.
    We are running a pilot program with the additional states 
to widen interaction with their intelligence centers via a 
homeland security information network, a pilot project, as I 
stated, which will be far more robust for sharing information 
in the future.
    Additionally, we are disseminating a wide range of Homeland 
Security related products to state and local governments, as 
well as to the private sector at both classified and 
unclassified levels.
    Another of my priorities is to ensure that DHS intelligence 
takes its full place in the intelligence community. In this 
respect, we are working closely with Ambassador Negroponte and 
his deputies in the office of the director of National 
Intelligence to ensure that budget guidance emphasizes a need 
of homeland security partners.
    We are also are enhancing our relationship with the 
National Counterterrorism Center, the National Counter 
Proliferation Center, and the Federal Bureau of Investigation.
    Last but not least, to solidify our relationship with 
Congress, I and my intelligence officers have maintained a 
rigorous schedule of intelligence briefings to the 
congressional leadership and key committees of both chambers.
    Additionally, we have taken steps to ensure members and 
staff have access to relevant DHS intelligence products and 
personnel.
    I am working to develop a transparent and open relationship 
with the Congress and so enhance and sustain a close 
cooperative working relationship with all the committees to 
which I report.
    Some of our transformation efforts cut across my five 
priorities. We have developed an end-to-end strategy to 
increase significantly the use of open sources in our analysis, 
and we have developed and are implementing a recruiting program 
to ensure we hire and develop into all-source analysts a cadre 
of the best and brightest officers out of America's 
universities.
    Serious challenges, however, remain. Looking ahead 6 to 12 
months, we will need to strengthen further our analytic 
capabilities, including accelerated training for analysts.
    I must work ever more closely with the heads of DHS 
operating components to ensure that their intelligence elements 
are strengthened and that they collaborate on threats far more 
closely than they do today.
    Above all, we must increase our interaction as you pointed 
out with state and local fusion centers, as well as the private 
sector, to ensure that we significantly increase our 
information sharing with all segments, government and non-
government.
    In many respects, however, our greatest challenge will be 
implementation of our enterprise architecture, which will be 
the transmission belt for integrating our DHS intelligence 
enterprise, as well as the means by which we reach out to state 
and local governments and to the private sector.
    Chairman and ranking minority member, we are still at war 
with an adaptive enemy who mean to do us great harm. We 
continue to track closely serious threat streams, working 
closely with Ambassador Negroponte and the rest of the 
intelligence community.
    We must stay ahead of these threats, and we plan to 
increase substantially our analysis in the coming months.
    I am thankful for the support I receive from the 
administration, my colleagues in the intelligence community, 
and from the Congress, including members of this subcommittee. 
I look forward to your questions and to your recommendations.
    Thank you.
    [The statement of Mr. Allen follows:]

                 Prepared Statement of Charles E. Allen

Introduction
    Chairman Simmons, Ranking Member Lofgren, members of the 
Subcommittee, it is my pleasure to return to report on my progress 
during my first seven months as Chief Intelligence Officer (CINT) of 
the Department of Homeland Security (DHS). We are moving rapidly to 
transform the Office of Intelligence and Analysis (I&A) across a broad 
front.
    When I appeared before you last October, I set forth five equally 
important priorities, which remain unchanged:
        <bullet> Improving the quality of intelligence analysis across 
        the Department;
        <bullet> Integrating the DHS intelligence enterprise;
        <bullet> Strengthening our support to state, local, and tribal 
        authorities, as well as the private sector;
        <bullet> Ensuring that DHS intelligence takes its full place in 
        the Intelligence Community; and,
        <bullet> Solidifying our relationship with the Congress by 
        improving our transparency and responsiveness.
    Today I will my report progress on addressing these priorities, as 
well as outline some specific goals for the next 6 to 12 months. But 
first, I would like to revisit briefly why the Department has a Chief 
Intelligence Officer and what my responsibilities are serving in this 
capacity.
    You are undoubtedly aware that the guiding principle of 
intelligence reform since the attacks of September 11, 2001, is 
integration. Two major commissions--the 9/11 Commission and the WMD 
Commission--have made integration of the national intelligence 
community the centerpiece of their recommendations. The principal 
reason to integrate is to improve intelligence performance, as well as 
employ our scarce intelligence resources more efficiently.
    These guiding principles for intelligence integration at the 
national level apply to integration of DHS intelligence as well. Our 
Department shares with others the most important mission of all--
protecting the Homeland from terrorist attacks. DHS has a wide range of 
other critical missions, such as securing our borders and critical 
infrastructure against all other threats and hazards. A department with 
so many interconnected missions cannot succeed without a fully 
integrated intelligence enterprise supporting it. Just as our nation 
needs an integrated intelligence enterprise, so does DHS. Furthermore, 
by integrating its own intelligence community, DHS contributes to 
integration of the national intelligence community.
    This thinking informed the Secretary's Second Stage Review, which 
resulted in, among other things, the establishment of the position of 
CINT. DHS Management Directive 8110, which Secretary Chertoff signed in 
January, establishes the authorities of the CINT to effectively 
integrate and manage the Department's intelligence programs. It makes 
the CINT accountable for designing the DHS intelligence system to 
optimize the intelligence function, setting standards for functional 
performance, creating Department-wide policies and processes, and 
providing automated solutions to yield greater efficiencies.

    Progress on priorities
    Improving the quality of analysis
    We have made significant improvements in our analysis, 
concentrating on issues that matter to Secretary Chertoff, our DHS 
leadership, and our nation. Under the leadership of my Deputy Assistant 
Secretary for Intelligence, Dr. Mary Connell, we have changed the focus 
and format of key products to make them more relevant and accessible to 
a wider range of consumers--policymakers, operators, and other 
analysts--at all levels. We have increased our monthly production. In 
keeping with best analytic practices, we take pains to distinguish for 
our readers what is known from what is surmised, and we ensure fair 
consideration of competing hypotheses--there is no ``groupthink'' among 
my analysts. A measure of our success in improving our analysis is that 
we have now begun to submit intelligence articles for the National 
Terrorism Bulletin and the President's Daily Brief.
    We continue to improve the quality of our analysis by expanding 
training opportunities for our analysts within the context of a DHS 
Intelligence Learning and Development Strategic Plan, completed in 
January, 2006. We are offering a full range of courses to improve our 
key analytic skills, including critical thinking, intelligence writing, 
and briefing, not only for I&A's employees, but across our DHS 
intelligence enterprise. I look forward to a time when our bench is 
full enough and deep enough to fully accommodate the need for 
continuous training and education without compromising our ability to 
fulfill our day-to-day mission.
    Through the recently established Content Management Board, we are 
developing consensus on Department-wide standards for formatting and 
dissemination of intelligence products, including posting of relevant 
products for use by state, local, and private-sector partners. We are 
also recommending enhancements to DHS intelligence production and 
dissemination standards to achieve the highest possible quality, and we 
are championing ``write-to-release,'' tearlining, and other practices 
to ensure the broadest dissemination of DHS intelligence products.
    Substantively, while terrorist threats and networks remain central 
concerns, we have broadened our focus to include potential U.S. 
vulnerabilities such as border and critical infrastructure security, as 
well as the spread of pandemic disease, which could weaken our ability 
to secure and protect the Homeland. Beyond these issues, we also are 
concerned with the proliferation of chemical, biological, radiological, 
nuclear, and explosive (CBRNE) materials and we are working to 
understand the growth and spread of extremist ideology, which 
terrorists could exploit to multiply their resources and capabilities 
to attack the United States.
        <bullet> Border Security: We are taking an aggressive approach 
        to support the securing our nation's borders. We believe the 
        threats to our security must be viewed across a spectrum of 
        concerns--narcotics, terrorism, illegal immigration, human 
        smuggling and trafficking, to name a few--and at the nexus of 
        these threats. We are working tirelessly to support the 
        intelligence and information needs of our frontline border 
        agencies, including Customs and Border Protection, the Coast 
        Guard and Immigration and Customs Enforcement.
        <bullet> Critical Infrastructure: Partnering with Robert 
        Stephan, Assistant Secretary for Infrastructure Protection, I 
        have strengthened the Homeland Infrastructure Threat and Risk 
        Analysis Center (HITRAC), the linchpin in our support to the 
        efforts of the Department and the private sector to determine 
        the risk of attack against key infrastructure as well as the 
        protective measures that may be taken. Additionally, at the 
        direction of the Secretary, I&A has begun to provide 
        intelligence support to the Committee on Foreign Investments in 
        the United States (CFIUS)--fulfilling a critical intelligence 
        need to secure our homeland.
        <bullet> CBRNE: I&A analysts provide all-source intelligence 
        support to assist DHS customers identify, prevent, disrupt, and 
        prepare for chemical, biological, radiological, nuclear, 
        explosive, and cyber attacks on the Homeland. They assess and 
        forecast adversary capabilities, intent, and methods of 
        terrorists through collaboration with DHS components--
        especially the Science and Technology Directorate and the 
        Domestic Nuclear Detection Office (DNDO)--and federal, state, 
        local, tribal, and international partners. Outside of DHS, our 
        analysts work closely with the National Counterterrorism Center 
        (NCTC), the National Counterproliferation Center (NCPC), and 
        the FBI to leverage expertise and information and produce 
        analytic products of the highest quality for the Secretary, DHS 
        components, and governmental partners at all levels.
                <bullet> I&A provides a range of support for DNDO and 
                helps link DNDO to the Intelligence Community. On an 
                ongoing basis, I&A gathers and assesses intelligence 
                reporting for situational awareness, analyzes emerging 
                trends, incorporates DNDO's information requirements, 
                and supports the establishment of regional centers for 
                radiation detection support. In addition, I&A supports 
                high-level DNDO Congressional briefs, participates in 
                Nuclear Alarm Assessment Conferences for unresolved 
                radiation alarms, and interfaces with DNDO's Nuclear 
                Assessment Program.
        <bullet> Radicalization: We have sharpened and refined our 
        focus on radicalization, viewing it as a strategic warning 
        issue--if we can understand the radicalization phenomenon, we 
        can identify the root of terrorism before it matures and 
        manifests itself in attacks against the Homeland. Working 
        closely with selected state and local government partners 
        across the U.S., we are examining the places where 
        radicalization occurs and the individuals it touches. Our 
        efforts are coordinated with and complement the work being done 
        by the FBI and other Intelligence Community colleagues, as well 
        as international partners who confront similar issues. 
        Together, we intend to develop a comprehensive understanding of 
        the radicalization challenge.

        Integrating the DHS intelligence enterprise
    As I said at the outset, the role of the CINT is to integrate the 
DHS intelligence enterprise. In this respect, I have taken a number of 
important steps in fulfillment of this role, including:
        <bullet> Establishing the Homeland Security Intelligence 
        Council (HSIC), consisting of the heads of the DHS component 
        intelligence offices, to serve as my principal decision-making 
        forum for intelligence issues of Department-wide significance;
        <bullet> Developing and approving the first-ever DHS 
        Intelligence Enterprise Strategic Plan, which provides all DHS 
        intelligence components with a strategic context for their 
        operations and investments;
        <bullet> Conducting a review of component intelligence programs 
        that will result in my making substantive inputs to the 
        Secretary's Resource Allocation Decisions--the first time this 
        has occurred, and a major step toward treating the budget 
        resources the Department devotes to intelligence as a coherent 
        program;
        <bullet> Through the efforts of I&A's Collection and 
        Requirements Division, developing a Department-wide roadmap for 
        intelligence, surveillance, and reconnaissance (ISR), ensuring 
        that the surveillance capabilities of DHS's operating 
        components will be employed with those of the Intelligence 
        Community and the Department of Defense in national crises or 
        natural disasters; and
        <bullet> Initiating a comprehensive Intelligence Campaign Plan 
        for Border Security, with an initial emphasis on the Southwest 
        border, bringing the resources of both the national and 
        Departmental intelligence communities to bear on this acute 
        problem.
    To help weld together the component parts of the DHS intelligence 
enterprise and bring them closer to both national and local consumers, 
we are designing an enterprise information architecture. Dr. Carter 
Morris, Director of I&A's Information Sharing and Knowledge Management 
Division, has developed a comprehensive assessment of the existing 
intelligence information technology architecture in DHS, along with 
recommendations to improve and enhance it. I am now reviewing this 
assessment. Nothing has higher priority programmatically for DHS 
intelligence than strengthening our ability to manage our information.

    Strengthening support to state, local, and tribal authorities and 
the private sector
    DHS has a crucial responsibility to serve state, local, and tribal 
authorities and the private sector. This set of partners is so 
important that I have given my Principal Deputy Assistant Secretary for 
Intelligence and Analysis, Mr. Jack Tomarchio, the primary 
responsibility for enhancing our relations with them. He is my ``Mr. 
Outside,'' and his extensive travels across the country listening to 
state, local, tribal, and private-sector officials' need for 
intelligence and information sharing have greatly enhanced our 
understanding of their issues, and has provided us with meaningful 
insights on how to better serve them. Complementing his efforts is the 
work of I&A's External Relations and Law Enforcement Partners Program. 
This outreach team, consisting of former law enforcement and public 
safety officials, attends association conferences and meetings to 
inform state and local representatives about DHS information-sharing 
programs and initiatives.
    Substantively, our analysts and briefers have provided immediate 
warning and outreach to state homeland security advisers and to other 
state and local officials on threat reporting.
    Another important aspect of our plans to serve state, local and 
tribal authorities and the private sector is our plan to support the 
state and local fusion centers that many states and large cities are 
establishing. Our recently developed plan is under review by the 
Secretary. Meanwhile, we have deployed DHS intelligence personnel to 
New York, Los Angeles, Maryland, and Louisiana to improve our support 
in these key regions. We plan to deploy several more officers to a 
number of fusion centers before the end of the current fiscal year. 
Additionally, we have initiated a pilot program with six states--
California, Arizona, Illinois, Florida, Virginia, and New York--to 
widen our interaction with intelligence analysts at their fusion 
centers via the HSIN-Intelligence portal; after further evaluation, we 
expect to extend this pilot program to a wider community of fusion 
centers.
    We are also taking advantage of information technology to 
facilitate our outreach. We regularly hold teleconferences with state 
Homeland Security Advisors and other key officials at the state and 
local level. We have given new technical direction to the Homeland 
Security Information Network--Secret (HSIN-S)--which should be 
operational this quarter. We will extend HSIN-S to state and local 
fusion cells on an interim basis until a more capable system is 
available. Finally, we are working hard on the deployment of a more 
robust information handling system, the Department's Homeland Security 
Data Network (HSDN).

    Ensuring that DHS intelligence takes its full place in the 
Intelligence Community
    We are also transforming our role in the national intelligence 
community. DHS I&A engages daily, at all levels, with the Office of the 
Director of National Intelligence (ODNI) and the individual 
Intelligence Community departments and agencies. Our collaboration with 
NCTC is strengthening by leaps and bounds. We have begun to submit 
articles for production in the National Terrorism Bulletin (NTB) and 
plan to increase our NTB submissions in coming months. Last month we 
participated along with other Intelligence Community members in an 
NCTC-sponsored joint requirements review for open-source intelligence 
needs to complement the previous joint requirements reviews for the 
other intelligence collection disciplines. Additionally:
        <bullet> We have worked with the ODNI to shape its budget 
        guidance to serve better the unique needs of Homeland Security. 
        As a result of our efforts, departments and agencies with 
        Intelligence Community members received guidance to provide 
        resources for the development of sensitive but unclassified 
        (SBU) intelligence products more readily used by state, local, 
        and tribal authorities and the private sector;
        <bullet> We are leading the Intelligence Community's efforts to 
        support border security through the development our 
        comprehensive Intelligence Campaign Plan for border security. 
        We are developing this plan in full partnership with the IC 
        collection agencies and hand in hand with the staff elements of 
        the Deputy Directors of National Intelligence for analysis, 
        collection, and customer outcomes;
        --I&A analysts have served as the functional lead for the 
        Department's participation in the National Counterterrorism 
        Community Terrorist Threat Warning System, and have provided 
        consistent support to the monthly meetings of the Interagency 
        Intelligence Committee on Terrorism;
        <bullet> We are engaged in a continuing and constructive 
        dialogue with the ODNI on a wide range of issues. With DNI 
        oversight, we are refining our roles and responsibilities, 
        authorities, and capabilities vis-a-vis the rest of the 
        Intelligence Community in the domain of homeland security. In 
        particular, we are collaborating with the FBI on DHS's 
        responsibilities for sharing information with state and local 
        governments.
        <bullet> Our relationships with other Intelligence Community 
        organizations continue to strengthen measurably, for example, 
        the FBI has added four intelligence analysts to its existing 
        special-agent liaison officer team in our office. This will 
        improve analytic collaboration between FBI and DHS and provide 
        DHS with new and continuing database access to FBI holdings, 
        improving our ability to provide unique information to our 
        customers. In turn, we have announced a DHS liaison officer 
        position to the FBI at a senior leadership level to emphasize 
        the importance we put on this relationship.

    Solidifying our relationship with Congress
    Since my arrival, I have initiated briefings with members and 
senior staff designed to enhance awareness of threats to the Homeland 
and how we are reinvigorating and strengthening our overall 
intelligence efforts. The Homeland Threat Stream Matrix is a continuing 
and high-interest briefing that my Office provides to Congressional 
officials with a need to know. Additionally, senior intelligence 
officers from our current analysis division provide regular threat 
briefings to the leadership and key committees of both chambers, a well 
as to individual members as required. Finally, we have taken measures 
to ensure members and staff have access to relevant DHS intelligence 
products.

    Cross-cutting accomplishments
    I want to mention several accomplishments that do not fall neatly 
into one or another of my priorities but which are crucial enablers to 
our mission.

    Open source
    We have developed a concept of operations for aggressive use of 
open sources (OSINT) that leverages current activities of the 
Department, other departments and agencies including the DNI Open 
Source Center, the private sector, and our state and local partners in 
order to improve analysis and, when applicable, to protect intelligence 
sources and methods.
        <bullet> We will gather domestic open-source information--
        including ``gray literature''--directly, and we will purchase 
        access to value-added collections that complement those already 
        available to DHS through its partner departments and agencies.
        <bullet> DHS officers will handle open-source information as a 
        normal part of their everyday routine. Additionally, a cadre of 
        specialists will support the mission needs of the Secretary and 
        DHS components. The value provided by these specialists will 
        include economies of scale, quality control and qualification 
        of sources, and linkages and indexing to related open-source 
        information as well as to intelligence and threat-advisory 
        issuances.
        <bullet> Dissemination will be both ``push'' and ``pull.'' We 
        will use existing channels of information dissemination. 
        Additionally, we may offer open-source information 
        ``wholesale'' to authorized organizations and ``retail'' to 
        selected users by direct subscription, and as a service 
        available through a common services architecture.

Human capital
    We developed and implemented a DHS Intelligence Recruitment 
Strategic Plan to bring onboard the best and brightest people fresh out 
of America's universities and colleges. We have taken 30 of our 
positions and converted them to GS-7/9/11 levels to take advantage of 
the ongoing recruiting efforts and build the foundation for a 
sustainable DHS intelligence enterprise. We are building a DHS 
Intelligence Basic Course to train our GS-7/9/11s--not only those hired 
by DHS I&A but by other Departmental intelligence components--to 
instill a true DHS intelligence culture at the beginning of our new 
intelligence professionals' careers.

    Looking ahead 6-12 months
    We have made progress but I am determined to move forward even 
stronger in the coming months. My agenda to continue I&A's 
transformation includes:
        <bullet> Continuing to strengthen the quality of our analysis, 
        focusing on training our analysts in core analytic skills, 
        continuing to extend this training throughout the DHS 
        Intelligence Enterprise, and tailoring our counterterrorism 
        threat warning and assessment products more closely to our 
        customers' requirements;
        <bullet> Continuing to build our expertise in the analytic 
        focus areas of border security, critical infrastructure, CBRNE, 
        and radicalization, while also strengthening our intra-
        Departmental support;
        <bullet> Enhancing intelligence support to the Department's 
        principals through enhanced briefing programs, which capitalize 
        on the skills and expertise of our most experienced analysts;
        <bullet> Making urgently needed improvements to our I&A 
        facilities to enhance the effectiveness and well-being of our 
        workforce to provide our officers with critically needed 
        information technology and workstations;
        <bullet> Achieving key deliverables in our integration of the 
        DHS intelligence enterprise, such as enhanced training efforts, 
        a DHS intelligence officer rotation program, and strengthening 
        our interoperability with DHS our components.
        <bullet> Significantly strengthening our growing relationship 
        with state and local authorities and the private sector, 
        especially by increasing the interaction we have with State and 
        Local Fusion Centers and by making more of our production 
        available to our non-federal customers via HSIN and ultimately 
        via HSDN; and
        <bullet> Expanding relationships with our international 
        partners, especially our closest allies. We have made progress 
        in this area in the past six months and we must now move 
        quickly to make further gains in our relationships with these 
        close friends.

Conclusion
    Members of the Subcommittee, I want to conclude my testimony as I 
did six months ago: by reminding you--and the American people you 
represent--that we are in a war with an adaptive enemy who means to do 
us grave harm. In addition, we are on watch for possible hazards to the 
homeland arising from illegal immigration, natural disaster, and 
pandemic disease, among other things. To stay ahead of these threats, 
the dedicated employees of I&A have been working long, hard hours to 
transform the way we do business. We must be resolute in our efforts 
and we cannot rest. I am grateful for the support and dedication of the 
men and women of I&A. I am also thankful for the support I have 
received from the Administration, from my colleagues in the 
Intelligence Community, and from Congress, including the members of 
this Subcommittee. Our transformation at I&A is well under way, but 
much work remains to be completed. I look forward to this challenging 
work. We owe it to ourselves and we owe it to the American people.
    I am eager to work with this Subcommittee to continue I&A's 
transformation, and I look forward to answering your questions.

    Mr. Simmons. I thank the gentleman.
    I mentioned that earlier this week, I had the opportunity 
to visit a fusion center in Maryland. I look forward to 
visiting a number of additional fusion centers located in 
different areas of the country. It is my belief that these 
fusion centers are going to be critically important as sources 
of information and as locations where responses can be 
coordinated, not only in the event of a terrorist threat, but 
also in the event of other natural crises.
    That being said, the National Governors Association 
recently surveyed all of the governors of the United States. 
They placed the state intelligence fusion centers as top 
priorities, and so I think your concern and my concern coincide 
with that of the governors.
    It is my understanding that when you look at the fusion 
centers, however, they are organized differently in different 
areas. They have different lead sponsors. Some are sponsored 
principally by the FBI, others by DHS, others by municipal 
police.
    It is my understanding that some federal guidelines on 
fusion centers have been developed by DHS, but they have not 
yet been released.
    I wonder if you could comment on the issue of fusion 
centers and what we need to do to move those concepts forward.
    Mr. Allen. Yes, Mr. Chairman. I strongly agree with the 
need for us to develop this strong relationship with the fusion 
centers, but they do differ remarkably in many ways. Some 
states as yet have not formed fusion centers. Others are in the 
early stages of doing so.
    And we are, I think, in agreement with you, and I know that 
the Secretary will want to issue some guidelines, because as we 
give out grants and as we begin training under legislation, the 
head of grants and training can actually help provide money so 
that the fusion centers can hire officers and analysts to come 
in.
    So the federal money will be involved with these. We will 
want to have some general guidelines so that there is a common 
understanding of roles, missions, functions, the flow of 
information down as you spoke earlier.
    One of the things that we know that is very important is to 
be able to harvest some of the information that has been 
lawfully obtained by these fusion centers, which deals perhaps 
with suspicious activities or trends and patterns of things 
that either states or local law enforcement organizations have 
detected. So in my view, the federal guidelines is going to be 
a key way of guiding this.
    The one thing we do not propose to do is tell any of the 
states or local governments how they should structure and 
organize their fusion centers. But we would hope that they 
would welcome federal guidelines as suggestions on how they can 
most effectively organize themselves.
    As you know, there are a number of fusion centers that will 
be opening. New Jersey will be opening soon a fusion center in 
Trenton, and, of course, the Regional Intelligence Center in 
Los Angeles will be opening in mid-July where I will be present 
to speak on behalf of Secretary Chertoff.
    Your point, sir, extremely well taken.
    Mr. Simmons. I thank you for that response.
    And again, I refer to Page 399 in the 9/11 Commission 
report which says that current threat calls for quick as well 
as imaginative and agile responses. So, if, in fact, the 
department's assessment of its recommendations on fusion 
centers is stuck on somebody's desk, and I don't mean yours, my 
inclination is to move forward with some legislative 
initiatives on the subject, and maybe at some point, that set 
of recommendations and our legislative initiative can meet.
    Again, I think it is critically important, and I thank you 
for the work that you have done in that line.
    Again, I now recognize the ranking member.
    Ms. Lofgren. Thank you, Mr. Chairman.
    As I mentioned in my opening statement, we did have a good 
opportunity to meet with Mr. Allen in a classified setting 
yesterday, and just going?I have another question other than 
the NSA issue.
    But the concern that I have is that, if there is 
information that is collected by another agency, not DHS, that 
in the end is decided was collected in violation of the 
statute, whether there is an ability to audit where information 
came and where it went as distributed from DHS.
    And the question is: Are you able to discuss this in this 
public setting?
    And if so, could you talk about that, and if you cannot 
talk about that, then just tell me that, and I will go to my 
second question.
    Mr. Allen. Yes, Congresswoman Lofgren, I can speak to the 
point of view that we receive information from all of the 
collection agencies of U.S. intelligence community as well as 
we receive information, obviously, of a law enforcement nature.
    We believe that all of the information collected by these 
other agencies is lawfully obtained. We know of no occasion of 
information that we have received that was unlawful, because we 
view that those agencies work with their general councils, with 
their inspector generals, and we know of absolutely no occasion 
on which any unlawful information has been received by the 
Department of Homeland Security. And, obviously, we respect the 
information of a law enforcement nature.
    So, I can say that we receive a wide variety of information 
just like the National Counterterrorism Center receives a wide 
variety of information. We apply our intelligence to these 
areas of homeland security, which I spoke about the fact that 
we analyze intelligence warnings and threats, and we try to be 
agile and nimble. If there is a threat of any urgency, we do 
secure borders.
    We are doing a tremendous amount of work on the critical 
infrastructures that is working to ensure that the private 
sectors of U.S. society are protected. We work against 
unconventional weaponry, and we work very closely with our 
director of science and technology.
    And then, of course, there is information from the open 
domain which come into us as well as that from the collection 
agencies in the intelligence community.
    We know of no unlawful information, and we are very 
confident that the information we have is lawfully obtained as 
part of our analysis.
    Ms. Lofgren. If I may, Mr. Allen, certainly, whatever 
information we have from whatever source, we would use to 
interrupt an attack on this country. The question really is, if 
it turned out that your trust in the information coming in 
was?you were disappointed, if that information became the basis 
for a law enforcement action and prosecution instead of an 
interruption issue whether we would be able to track it into 
light.
    So I am going to move on to the second question, which 
really relates to High Track. In February, you and Dr. Mary 
Connell talked about the progress of the critical 
infrastructure vulnerability assessment that High Track is 
doing. And I am worried and, frankly, maybe a little concerned 
about the private sector participation in these efforts.
    The GAO report says that only 290 voluntary submissions 
have been made on critical infrastructure information from the 
private sector. And they identify some things in their judgment 
the department should do, that we should define specific 
government needs for critical infrastructure information, 
explain how the information will be used, assure the private 
sector the information will be protected, who will have access 
to the information, and somehow give an indication of benefit 
to the owners of the information for sharing.
    Have you had a chance to think about these suggestions, and 
do you agree with them, or is there something else that we 
should be doing?
    Mr. Allen. I believe that the High Track, which I think is 
absolutely vital that we further enhance and strength our high 
track production. Dr. Connell, who is with me, has worked very 
hard to put additional analysts into High Track.
    We also have requested substantial increase in the number 
of sector specialists which have to come from the 
infrastructure protection directorate so that we can get the 
synergy that is involved.
    I understand the anxiety of the private sector, but I think 
that in the last 6 months, you have seen a true increase in the 
amount of information we flow to the private sector. I just had 
a very senior official in the private sector from your state 
call on his own and compliment the kind of support that he was 
now receiving, that it was effective. It enabled him to take 
the kinds of protective measures for his sector that he needed.
    I am meeting with the--because there is a critical 
infrastructure security committee, I meet with the heads of 
each of the 17 U.S. private sectors. They like our new product.
    We have a lot of work to do there, Congresswoman. You put 
your finger right on something that we are going to work very 
hard. We are very proud of what we have done.
    One of the things that we have started to do is working 
with the private sector on suspicious activities and reporting 
out to those sectors things that have been detected either in 
intelligence or law enforcement channels in order to enable 
them to understand what might be going on as far as trends and 
patterns of someone wishing to harm the private sector.
    We are very pleased with where we are, but in the next 6 
months, I want to come back very strongly and tell you that we 
are a lot better off than we are today.
    Ms. Lofgren. Mr. Chairman, if I may, I never dreamed that 
we would start our 3:30 hearing at 4:30, and unfortunately, 
Chairman Sensenbrenner and I and Mr. Conyers are hosting a 
members meeting for roughly a hundred people at 5 o'clock. And 
Jim Sensenbrenner is a very strong chairman, but I don't want 
to tick him off, so I am thinking that I will rush over to that 
meeting and then try and come back, leaving the minority in the 
capable hands of Mr. Langevin for the moment.
    Mr. Simmons. Good luck with Mr. Sensenbrenner.
    The chair now recognizes the distinguished gentleman from 
Nevada, a member of the Intelligence and Armed Services 
Committee, who has on the distant horizon perhaps the 
opportunity to be a governor. And so these issues might be of 
particular interest to him.
    Mr. Gibbons. Well, they are, Mr. Chairman, and I want to 
thank you for the lead-in. You are a very good, straight man, 
and I appreciate that as well.
    Mr. Allen, it is always a pleasure to see you before our 
committee, and I know oftentimes that the stress of a rigorous 
schedule of reporting and briefing Congress oftentimes puts a 
hardship on the agency to do their job. And for that, we 
apologize, but there is no over alternative for us but for you 
to be here.
    What I am interested in, of course, is the state-federal 
relationship here. As you have mentioned, there are a number of 
states that are just beginning or started or are in the early 
phases of having an analytic center or a fusion center, if you 
will.
    I would like you to tell me, if you can, how do you gauge 
what they are doing correctly or what they are doing 
incorrectly today? And if you can, tell me which states are 
doing it right and which ones are doing it wrong.
    Mr. Gibbons. That is a very good question, how to evaluate 
and judge the efficacy of the various state fusion centers. And 
some are so in their early stages, they are just now getting 
computers and equipment and getting the personnel staff, say, 
like the state of Virginia.
    I was with Governor Kaine a few weeks ago, and he is 
anxious for me to send an analyst down to work in his state 
fusion center, which is going to be really outstanding, and the 
Homeland Security adviser there working closely with the 
governor to ensure that he builds what we want.
    We go to, I believe, some states out in the far northwest. 
Montana, Idaho, and others have yet to come online with the 
state fusion center.
    But there are some very strong ones. There is some in the 
south. I know that Georgia has a very strong one. It is obvious 
that Tennessee is extremely active. New York is very, very 
active up in Albany. Very pleased with some of the--
    Mr. Gibbons. How do you gauge those?
    Mr. Allen. Based on what they are doing, based on their own 
content of their own analyses, based on their interactions with 
us, and we have steady interactions either on--if it is a 
class-mat matter, on a secure phone or nonsecure phone. I have 
calls with them or my subordinates on a regular basis. So we 
can make judgments as to how well they are faring or not 
faring. They obviously need assistance from our training and 
grants directorate. They need funding, because they do not 
necessarily have the funds themselves.
    So I think the guidelines that Chairman Simmons spoke of 
are very important. Those are guidelines that are, of course, 
being worked closely with the Department of Justice so that we 
ensure that we have the very best guidelines and supporting of 
intelligence and law enforcement activities that may occur in 
these fusion centers.
    Mr. Gibbons. That support and the guidelines, does that 
include the training of the individuals for these state fusion 
centers?
    Mr. Allen. Yes, sir, because under the legislation which 
the Congress has provided, under grants and training, which I 
do not control, but obviously, we work closely with grants and 
training, can give funding for training programs. They can give 
training--they can actually give funds so they can hire 
analysts or other officers to staff the fusion centers.
    Mr. Gibbons. Well, those would presumably already be 
trained officers, trained analysts that come from some other 
agency, can which in my view, brings the question of: Do we 
have enough analysts, trained intelligence officers for this 
kind of this opportunity that can go and participate in these 
state functions without short-changing the work of the 10 
different offices of the intelligence that you have under your 
direction.
    Mr. Allen. That is going to be an issue. We are going to 
put some analysts and some liaison officers to coordinate 
relationships.
    As far as training, we actually, under the law, have been 
able too bring some of the people, for example, New York and 
Maryland, some of their analysts into some of my training 
programs which I initiated. So we are working very closely with 
the states.
    Right now, given how stretched we are in the Office of 
Intelligence and Analysis, deploying additional officers out to 
the states will be a strain, but we are going to--I have talked 
to the secretary and the deputy secretary, and they both feel 
that we need to do this. So we are going to put officers in 
many of these state fusion centers over the next 2 to 3 years.
    Mr. Gibbons. One final question, Mr. Allen, and I don't 
mean to belabor this. Have we improved the long delays that it 
has been taking to get local and state law enforcement officers 
certified or cleared for classified information, giving them 
the classification to receive that?
    I mean, there have been a number of complaints that we have 
heard over the last many, many months, that it is just taking 
too long.
    Mr. Allen. I have learned of this since my arrival. I am 
unhappy with the progress that has been made. I am working with 
the director of office security to clear additional officers 
with the state fusion centers, local government.
    For example, I have all but completed clearing 50 officers 
with the intelligence division of New York state. I just met 
with Mr. McClary, police chief of Las Vegas. He is putting in a 
request to clear four of his people. We are going to do that.
    So, yes, I am very active and working directly with the 
chiefs of police, with the sheriffs of the major counties to 
clear some of their people. There is no reason why we should be 
behind or delay clearing these people, clearing all of them. 
Compartmenting information will be a little difficult, but we 
ought to be able to give them secret clearances, and we ought 
to be able to do it rather rapidly, Congressman.
    Mr. Gibbons. And what does that rapidly mean? With your 
influence say, for example, if--
    Mr. Allen. Well, we can do it in a matter of weeks once 
they get the information in. The ones in New York have been 
cleared very rapidly. We are clearing a number of people. And I 
am clearing people in the private sector, people who really run 
security of major private sectors. They need the clearances 
too.
    And I have worked directly with the private sector to get 
them clearances at the secret level. We need to accelerate 
this. We have not done what should have been done, and I am not 
too happy with that, by I am doing my level best to improve 
that.
    Mr. Gibbons. Well, you sound like you are the right person 
for the job. You are the first one that has shown any 
enthusiasm about moving that issue along quickly, and I 
appreciate it.
    Thank you, Mr. Chairman. I yield back.
    Mr. Simmons. I thank the gentleman for his questions.
    The chair now recognizes the distinguished gentleman from 
Rhode Island, Mr. Langevin.
    Mr. Langevin. Thank you Mr. Chairman.
    Mr. Allen, I want to thank you for being here today and for 
your testimony. Just on a personal observation and note, I 
appreciate how accessible you have been. You have been before 
this committee now several times, and we have had private 
briefings with you in closed session. In addition, you and I 
have had one-on-one discussions in my office. I appreciate how 
accessible you have been.
    Let me turn to a topic that we have discussed before and 
builds on the line of this issue of open communication--more 
effective intelligence sharing with state and local officials.
    I know one of the times we have had discussion in my 
office, we talked about RISSNET, Regional Information Sharing 
Systems Network, that law enforcement already uses right now 
for communicating with respect to sharing intelligence on 
criminal activity.
    And it seems to be a good model that works, and law 
enforcement is comfortable with it. I know you sent a 
representative, as I understand it, because you said you would, 
to RISSNET to evaluate their capabilities and whether that is 
something the Department of Homeland Security should be using 
to share information about potential terrorist activity.
    Can you just report to the committee your assessment of 
RISSNET and just the information sharing mechanism that you 
will be using in homeland security?
    Mr. Allen. Congressman, that is a promising capability. My 
deputy went up to Massachusetts to talk to officials there. I 
will get back to you with their assessment. I do not have a 
final assessment on his visit. We will get back to you on 
RISSNET with the formal writing, formal question for the 
record, if I may, sir.
    Mr. Langevin. I appreciate that. And again, I appreciate 
the fact that you dispatched one of your deputies so quickly to 
go and at least evaluate the capability of RISSNET.
    If I could, you also said that state regional fusion 
centers obviously are being touted as an important resource to 
promote information sharing with state and local and tribal law 
enforcement officers and other entities nationwide. My 
understanding, though, is that DHS is planning to send I&A 
representatives to fusion centers--I know you have mentioned 
that several times here today as well--in order to basically 
act as liaisons with the DHS.
    I also understand that the various folks that you will be 
sending are at different levels of experience, different skill 
sets and will be playing different roles. So my question is: 
How will there be a consistent DHS footprint in the fusion 
centers without some common standards for the people that you 
are sending into the field?
    What is your concept of operations implementation plan for 
the fusion centers initiative being finalized only now after 
you have already deployed personnel to the field? Basically, 
what are the key points from your concept of operations and 
implementation plans?
    Mr. Allen. That is a good question. I did deploy people 
with the Secretary's approval before the concept of operation 
and implementation plan has been fully staffed and all the 
funding for fiscal year 2006 and fiscal year 2007 have been 
identified.
    I did that because when I arrived, I found we had nothing 
in the field. We had New York, we had Los Angeles, we had other 
cities that wanted support. So I pressed hard to get some 
people out on an ad hoc basis. That is no substitute for a plan 
and for implementation of the plan. And some of the officers I 
have sent have?and it depends to some degree on the fusion 
center and their requirements. Out in Los Angeles, we need an 
officer to help coordinate.
    Up in New York, particularly in New York City, we need not 
only a liaison officer, but they also want analysts to help 
work with the intelligence divisions in New York City and with 
the Counterterrorism Division to help them shape their analyses 
and to do mentoring. So it does differ from state to state.
    Our implementation plan suggests that most of our people 
will work in liaison and coordinating capacities. But, for 
example, down in the state of Virginia, because they have a 
laboratory there with the military with Governor Kaine, I 
believe he wants to have an analyst down in the state of 
Virginia.
    The state of Maryland, we sent one of our finest analysts 
Dr. Connell has up to Maryland to help with the one that 
Chairman Simmons met.
    We have to get all this together, and very candidly, our 
concept operation has come together since January. And now, we 
have to get the implementation plan out and approved by the 
Secretary, and then we have to carefully determine the work and 
the activities that each will undertake out in the state fusion 
center.
    In most cases, I think it will be liaison officers, 
coordinating officers, but a number of these places really do 
need analysts. Governor Kaine made that very clear in the state 
of Virginia.
    Mr. Langevin. So it is your intent that although this first 
appointment of individuals from I&A were more of an ad-hoc 
basis that eventually, there will be a uniform plan for the 
type of people that is deployed with various capabilities and, 
skill sets?
    Mr. Allen. Yes, sir, that is absolutely my intention. My 
principal deputy, Jack Tomarchio, has been charged with doing 
the kind of detailed implementation plan. He is a person from 
the private sector who has worked very closely at the state and 
local government levels in his career, and I have every 
confidence that in 6 months from now, we can come back, and we 
will lay out a plan that will be very satisfactory to you.
    We will not have a lot of people out in fiscal year 2006, 
but we hope to put 15 or 20 more out possibly in fiscal year 
2007.
    Mr. Langevin. Thank you very much.
    Mr. Simmons. I thank the gentleman for his questions, and I 
would like to do a second round if the gentleman would 
accommodate me. Thank you very much.
    I had the opportunity to meet Robert Stephan, the assistant 
secretary for Infrastructure Protection. He is an impressive 
guy, Air Force career, retired colonel, I believe, and he 
filled me in quite a bit on High Track and how that is going.
    I appreciate your comments that there seems to be more 
cooperation from the private sector, and I think that is a good 
sign that we are getting that cooperation.
    I raised with him one issue that concerns me when it comes 
to critical infrastructure and protection. And that is 
passenger rail, particularly Amtrak. I sit on the Railroad 
Subcommittee of Transportation. I have Amtrak through my 
district, in fact, through my hometown. Many of my constituents 
ride on a regular basis.
    And looking back to the Baltimore tunnel and the New York 
City tunnel issues, looking to the Spain commuter rail attack, 
and also the British subway attack, it seems to me that that is 
a model of attack that has been used by the terrorists in the 
past. And certainly, with our rail infrastructure, our 
situation might lend itself to that kind of attack, in 
particular because Amtrak police are so limited in their 
numbers.
    We have three Amtrak police, who are based in New Haven, 
Connecticut, who cover the Amtrak line from the New York border 
to Providence. There are another three that operate out of 
Maryland. Very limited resource, stretch resource. They do not 
fill all their slots. Their new recruits frequently disappear 
and go off to work with municipal police.
    And so I guess my question would be: What effort or what 
focus has been applied to the issue of passenger rail, in 
particular Amtrak? And do you share my concern over the lack of 
numbers and of the Amtrak police?
    Mr. Allen. Chairman Simmons, I share completely your 
concern about passenger rail, mass transit. Nothing probably 
gives us more worries. We obviously work, as Kip Hawley, the 
head of the Transportation Security Administration, has stated 
about the passenger rail mass transit, that it is a deep 
concern to him.
    We have hardened our aviation security, although there are 
still risks there, and Mr. Hawley is concentrating particularly 
on detecting explosives.
    But passenger rail, you are right. It is a very open 
society, thousands of miles, either above ground or underground 
across this great country. And the amount of security is, of 
course, limited.
    What we are doing is providing our assessments, providing 
suggested potential ways that the mass transit sector can 
mitigate some of these risks.
    There are more measures being taken, certainly, at the 
federal level, by Mr. Hawley. I believe in a classified 
session, he could tell you more specifically some of the very 
subtle measures that are being taken that may not be totally 
evident. There are a number of areas.
    I do agree that based just on what we know about al-
Qa'ida's interest in this or affiliated networks, that this 
gives us--this is the kind of thing that certainly keeps me up 
at night. And if we get a threat that deals with mass transit, 
rest assured that that gives heavy scrutiny.
    We work with the FBI and the National Counterterrorism 
Center. We get the Homeland Security adviser on secure phone or 
send secure messages. If it is a classified matter or if it is 
one that we can just use the official-use only level, we get it 
to them quickly. This is probably as worrisome a sector as we 
have, sir.
    Mr. Simmons. Thank you for that, and I will ask one more 
question, realizing my time is disappearing.
    Open-source intelligence--we have talked about it before. 
That is my understanding that the Oklahoma City National 
Memorial Institute for the Prevention of Terrorism has a 
terrorism knowledge base that includes over 30 years of open-
source terrorism data.
    We have a new open-source center that is affiliated with 
CIA, the FBIS, which I am sure you are familiar with. It is 
interesting and instructive to look at the recent concern 
expressed over the National Security Agency surveillance 
program to understand how Americans are instinctively concerned 
about secret operations, in particular, those that could 
possibly involve their own privacy here domestically within the 
United States.
    That is one argument among many for a focus on open-source, 
in particular, for the Department of Homeland Security which 
has responsibilities primarily within the domestic United 
States to be using as much information as possible that is 
derived from openly publicly available sources so Americans are 
assured or get some assurance that their privacy is not being 
violated.
    I know you have testified in favor of open source. I know 
you are an advocate for it. Over the last 6 months or 7 months, 
what progress do you see incorporating open source into your 
analytical product?
    Mr. Allen. Chairman Simmons, under Dr. Connell here and 
with the advice of some real specialists in open source, we are 
now in the early phases of developing a comprehensive open-
source strategy, one of things that we have done is, for the 
first time, the Department of Homeland Security, my office is 
taking over the open-source information system portal of 
information that deals with the homeland. This is something 
that we have just now taken over.
    We are looking at putting together a cadre of government 
specialists as well as contractors from my office to work as a 
virtual satellite bureau of the open source center that is run 
by CIA to ensure that we meet the requirements, not only of the 
federal government for Homeland Security open source 
information, but that we also make available this information 
we put down to the states. The states also, as you know, have 
open source things publicly and lawfully acquired that we hope 
to have push back towards us.
    One of the things that Dr. Connell has done is to scrub all 
the requirements for open source. When we came in 6 months ago, 
7 months ago, none of that had been done. There was no open 
source strategy, no open source program. We now have the 
beginnings--and this is going to be one of my highest 
priorities. Commercial imagery is something that I feel very 
strongly about.
    There are many ways that we can benefit homeland security 
and through information sharing down and pull information back 
from state and local government, all of which is open in the 
public domain, all of which is legal.
    Mr. Simmons. Thank you.
    The gentleman from Rhode Island?
    Mr. Langevin. Thank you, Mr. Chairman.
    Mr. Allen, I note one of I&A's major concerns is 
radicalization within the United States and the threat that 
this phenomenon poses to the homeland.
    Without disclosing any classified information, of course, 
what is your assessment of the extent of the radicalization 
problem today, and what challenges is the intelligence 
committee facing in this sphere, and what can be done to 
prevent radicalized individuals, be they violent Jihadists or 
right-wing extremists, from committing terrorist acts?
    Mr. Allen. Yes. I appreciate the question, Congressman, 
because we have formed a radicalization cell within our finest 
officers under Dr. Connell within the Office of Intelligence 
and Analysis. They are looking at the very broad aspects of 
radicalization. They are also looking, not only at what you 
might call those who are engaged in believing in the Jihad, but 
we are looking at extremists on the right. We are looking at 
animal liberation movements, earth liberation movements, people 
who would use violence or do damage to our infrastructure.
    Our greatest worry, however, of course, those right now are 
those involved in starting to believe in the Jihadist message. 
And as we know, we have this virtual world where we see people 
connected to the Internet and the Internet culture--there is 
Internet culture supporting the Jihad, as you are well aware. 
It is a major driver.
    We are not trying to get into the work that is done by the 
National Counterterrorism Center or the Federal Bureau of 
Investigation. We are working in a complementary way that, 
because we have found out that states have a great deal of 
information, a great deal to offer, all the states are looking 
at radicalization. Your own state, I am sure, as well.
    We know that California, New York and others are doing a 
remarkable job, and we hope to work with state and local 
governments and with the major cities, law enforcement 
departments to be able to get a better understanding of how 
perhaps radicalization is spreading across the United States. 
It is very small, it is very limited, but we know what damage 
only one or two individuals can do to our society.
    Mr. Langevin. Thank you. On that point, my understanding is 
that much of the radicalization in the United States that is of 
concern to the intelligence community is actually occurring in 
our federal and state prison systems.
    From your perspective, how easy is it for the prison 
authorities to share information about radicalized inmates with 
the intelligence community and state and local law enforcement 
authorities?
    And what areas of improvement are called for in terms of 
improving information sharing in this area, and what role do 
you envision your office playing in this regard?
    Mr. Allen. I believe that we will play a very vital role 
along with the Federal Bureau of Investigation and with the 
National Counterterrorism Center. States and local law 
enforcement agencies can share information that may involve 
U.S. persons if those persons are engaged in advocating or 
directing the violent actions against our society.
    So we believe, though, that we are not looking at 
individuals as we are looking at how this happens. What is the 
phenomenon that causes a student from the University of North 
Carolina to suddenly try to kill students, as he tried to do on 
the 3rd of March 2006, an individual, that, for all ostensible 
purposes, was not radical, was not an extremist, but obviously 
had extremist beliefs and some extremist ties, particularly 
probably the Internet? So these are things that are very 
difficult for us to understand.
    We are partnering with Dr. Maureen McCarthy of the director 
of the Science and Technology of Homeland Security, which is 
doing some very interesting research in behavioral sciences in 
trying to look at this phenomenon of radicalization.
    I am very pleased with where we are. We have got a long 
way. Until Dr. Connell put together this team about a couple of 
months ago, this radicalization studies were not being done in 
Homeland Security. So we will be doing some assessments, 
coordinating them with the rest of the intelligence community, 
including the intelligence elements of the FBI.
    I think this will help a great deal. Our Secretary is very 
interested in this phenomenon of radicalization. It troubles 
him greatly.
    Mr. Langevin. It certainly concerns me. I know members of 
the committee as well as other people in law enforcement. Thank 
you for your answer on that issue.
    Mr. Chairman, I yield back.
    Mr. Simmons. I thank the gentleman.
    My recollection is that President Kennedy said many years 
ago in reference to some of the activities the intelligence 
community and the CIA that success has many fathers, but 
failure is everywhere an orphan. It is particularly difficult 
in our free and open society for American citizens to have a 
sense of how their intelligence organizations are doing.
    Yes, 9/11 was a terrible event for us, and some would say a 
failure for the intelligence community. Since 9/11, we have not 
had a similar event, but it is hard to know what that means. 
Does that mean that we have been supremely successful and we 
have thwarted hundreds and hundreds of attempts to replicate 
that day here in the United States? Does it mean we are just 
simply lucky, and the bad guys aren't trying anymore?
    I wonder if it would be possible for you to share with us 
your sense of whether we have had successes in the interim, 
whether you are aware of successes where attempts have been 
thwarted. And you may not be able to talk about that in detail, 
but I think it would be useful to respond to that kind of 
question in open session.
    Mr. Allen. Thank you Mr. Chairman. I was a young officer 
when President Kennedy came to CIA headquarters and what was 
then a very new building and stood in the quadrangle in front 
and said those famous words, and I stood about 30 yards from 
the president. So that stands out vividly.
    Mr. Simmons. Did I get it right?
    Mr. Allen. Yes, sir, you certainly did. And he spoke those 
words.
    Mr. Simmons. I was not there.
    Mr. Allen. And it was an emotional moment for all of us 
after the Bay of Pigs. We had a great director then, John 
McCone, one of the most famous directors we ever had. So it was 
a historic moment. There is no question of that.
    We have serious threats. We have had serious threats since 
September 11, 2001. We have had extraordinary success, I think, 
overseas led by intelligence and by the U.S. military. But I 
think the intelligence operations overseas have been simply 
nothing short of magnificent. I have been involved in many of 
them in my previous capacity at the Central Intelligence 
Agency. I am very proud of what the agency has done and 
continues to do.
    In this country, there have been clearly plots disrupted 
and thwarted. Some of them were in preliminary stages. Others 
were moving along to a more direct attack upon Americans. And 
they take place in a number of forms. Some are fairly 
ambitious, some are rather modest.
    It is my belief that these threats will not diminish, that 
even though we have an al-Qa'ida that has weakened and has been 
battered, it is clear that the leadership of al-Qa'ida still 
wants to conduct transnational operations. We have heard from 
Osama bin-Laden in audio tape three times: 19th January; 23 
April; and then 23 May just in this year. We have heard from 
Zawahari, the number-two guy, I believe four times this year.
    So in my view, we are a country at war and a country under 
threat. It is going to take all of us. It is going to take all 
the national intelligence community and all the state and local 
law enforcement working collaboratively to keep the country 
safe. That is what I do every day. It is what I have done. 
Particularly in the last 15 or 20 years in my career, I always 
go to work thinking, my job is to keep the country safe, and 
that is what I try to do.
    Mr. Simmons. Well, I thank you for that, and I thank you 
for your success thus far.
    As you recall, after the collapse of the wall and the 
dissolution of the Soviet Union, the end of the Warsaw Pact, 
there was a sense in this country that we no longer had any 
special threats. And we glided through the 1990s defunding our 
military and defunding our intelligence.
    Now, we are in a situation where we not only have to 
refund, but we have to reorganize. What would be the one or two 
principal hurdles that you face in this refunding and in this 
reorganization that this subcommittee can be helpful on?
    Mr. Allen. I think, first of all, is the quality of our 
people. I think that the U.S. intelligence community drew down 
by almost 25 percent in personnel in the 1990s. Our military 
intelligence fell by about 33 percent. There is a big deficit. 
We are trying to grow analysts now and also intelligence 
operations officers and the best and brightest technologists.
    I am out recruiting on college campuses now, and we are 
getting hundreds and hundreds of applications for, say, a 
hundred or 120 positions. That is very encouraging to me. We 
are going to have to grow these analysts. And CIA and FBI are 
going to have to grow wonderful operatives to help do this.
    So the first thing we have to do is continue to get support 
from you, sir, and helping us build and grow and train the best 
minds in the country, whether they are in operations, whether 
they are in science, or whether they are all-source analysts. 
We have a real deficiency.
    Dr. Connell is trying to build and grow and mentor a lot of 
officers right now, and we are looking forward to these bright, 
young Americans coming in to work for our DHS intelligence 
enterprise.
    The second thing that has to be done, of course, is to get 
us out of the 20th century when it comes to information 
technology and information sharing. We are doing a lot of this. 
I believe that what has gone on under previous Director Tenet 
and now under Ambassador Negroponte trying to be able to find 
ways to lawfully share information far more effectively than we 
have in the past and to support us in this information 
technology, what Congressman Langevin talked about, the system 
up in Massachusetts.
    Those kinds of tools, we need to have tools like that, 
which will be very invaluable. It will help us understand what 
is going on in the country, help us link information quickly. 
Those things have to be funded. So your continued support and 
information technology in helping us grow officers, whether 
they be operations officers or analysts or scientists, we 
appreciate it. We appreciate it very much.
    Mr. Simmons. The gentleman from Rhode Island?
    Mr. Langevin. I may have some questions, but I will submit 
it for the record at a later time, Mr. Chairman. But at this 
point, I have no further questions.
    Mr. Simmons. I thank the gentleman for his participation.
    Mr. Allen, I thank you and your staff for being here today. 
We apologize for the late start because of the previous 
committee activity that kept the room. But we appreciate very 
much this update.
    We will have some questions for the record. The members of 
the committee may have some additional questions for you, and 
we will ask you to respond to these in writing. The hearing 
record will be held open for 10 days.
    And there being no further business, without objection, the 
subcommittee stands adjourned.
    [Whereupon, at 5:30 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
